                                           —

     Department of Health and Human Services

            OFFICE OF
 I     INSPECTOR GENEML




     ENHANCING THE UTILIZATION OF
      NONPHYSICIAN HEALTH CARE
             PROVIDERS:

           THREE CASE STUDIES





              MAY 1993   OE141-9042071°

                                               I
-.
               EXECUTIVE                         SUMMARY

This report presents case studies on how three health care organizations are working
to enhance the utilization of nonphysician health care providers. Evercare, a managed
care delive~ system in Minneapa@ illustrates how nurse practitioners working in
collaboration with physicians can enhance the delivery of care to nursing home
residents. St. Joseph’s Hospital of Atlanta is using professional and nonprofessional
hospital staff on two units to del&er more patient care sexvices directly at the bedside.
Chicago’s Mercy Hospital and Medical Center is training nonprofessional workers to
perform technical tasks and to work in permanent teams with registered nurses in a
hospital-wide expansion of the hospital’s nursing service.

Our companion report, Enhancing the Utilization of Nonphyskim Health Cure Bovidem
(OEI-01-90-02070), synthesizes our assessment of the potential for more effective use
of nonphysician providers. In that report we describe five significant barriers to
enhancing the utilization of nonphysician providers. In this case study repo~ we also
address how health care organizations can overcome these barriers.

~f~nal        Tdria&m       Rather than encourage a teamwork approach to providing
care, professional boundaries can inhibit cross-discipline sharing of knowledge and
information. Professional terntorialism limits health care organizations’ abilitvd to take
advantage of opportunities to enhance utilization of nonphysician providers.

To address this barrier, health care organizations can:

  �
       Clearly delineate the duties and skills that are specific to a profession.   Allow
       members of the profession to maintain their professional identity.

  �
       Emphasize each profession’s role as part of an overall health care team,
       enhancing the role of the profession, rather than diminishing it.

  �
       Hold in-service training and problem-solving sessions that involve different
       professions, thus providing a broader viewpoint. Include members of different
       professions both as “students” and as “teachers” at the in-service.
                �   �

           Re@lxtwu     Licensure laws are designed to protect the public’s health,
safety, and economic well-being by restricting entry into the occupations to those with
the proper credentials. These regulatory laws also can inhibit flexibility in how
nonphysician providers may be utilize~ reduce access to semices, and impose higher
costs.

To address this barrier, health care organizations can:




                                             i
..
                                                                                    —


                          INTRODUCTION
BACKGROUND

This report is a companion to our inspection Enhancing the Utilization of Nonphysician
Health Care Providen (OEI-01-9042070).         That report synthesizes our assessment of
the potential for more productive use of health care personnel and the btiers       in the
health care system that often inhi%it such efforts. Drawing on a review of the
literature, intemiews with experts, and these case studies, we found that health care
organizations in different settings, including hospitals, nursing homes, and ambulatory
sites, are taking new approaches to organizing and staffing health care senkes. We
also identified five significant barriers that constrain the widespread adoption of these
approaches:

   �
       Professional Tem”torialtim. Rather than encourage a teamwork approach to
       providing care, professional boundaries can inhibit cross-discipline sharing of
       knowledge and information. Professional terntorialism limits health care
       organizations’ ability to take advantage of opportunities to enhance utilization
       of nonphysician providers.

   �
       Licenwre Res~”ctions. Licensure laws are designed to protect the public’s
       health, safety, and economic well-being by restricting entry into the occupations
       to those with the proper credentials. These regulatory laws also can inhibit
       flexibility in how nonphysician providers maybe utilized, reduce access to
       semices, and impose higher costs.

  �
       Educational Isolation. Health professions education rarely includes inter-
       disciplinary training. This exclusion divides the professions horn each other,
       rather than encouraging cooperative practice styles and team building.

  �
       Physician Resistance. Although some physicians are working closely with NPs,
       PAs, and CNMS, other physicians resist broader scopes of practice for these
       providers. This resistance may result from physicians’ concerns about quality of
       care, unfamiliarity with how to utilize these providers effectively, and self-
       interest. This resistance can hinder access to care, since these providers are
       able to extend the capacity of individual physicians to deliver care.

  �
       Institutional lize~”a. Health care organizations, like most organizatio~ are
       naturally resistant to change. Redefining organizational boundaries requires a
       significant change in how all health care staff--both physician and nonphysician
       providers--are utilized.

The case studies presented in this report ciescni how three health care organizations
are attempting to make more productive use of nonphysician health care providers.
EverCare, a managed care delivery system in Minneapolis, illustrates how nurse


                                            1


                              ...—
                                                                                          -..


                   EXECUTIVE                         SUMMARY

    This report presents case studies on how three health care organizations are working
    to enhance the utilization of nonphysician health care providers. EverCare, a managed
    care delivery system in Minneapoi@ illustrates how nurse practitioners working in
    collaboration with physicians can enhance the delivery of care to nursing home
    residents. St. Joseph’s Hospital of Atlanta is using professional and nonprofessional
    hospital staff on two units to de&er more patient care semices directly at the bedside.
    ~cago’s     Mercy Hospital and Medical Center is training nonprofessional workers to
    perform technical tasks and to work in permanent teams with registered nurses in a
    hospital-wide expansion of the hospital’s nursing setice.

    Our companion report, Enhancing the Utilization of Nonphysician Health Care l+ovidens
    (OEI-01-90-02070), synthesizes our assessment of the potential for more effective use
    of nonphysician providers. In that report we describe five significant barriers to
    enhancing the utilization of nonphysitian providers. In this case study repo~ we also
    address how health care organizations can overcome these barriers.

    %$~           T*­           Rather than encourage a teamwork approach to providing
    care, professional boundaries can inhibit cross-discipline sharing of knowledge and
    information. Professional terntoriaiism limits health care organizations’ abilitvd to take
    advantage of opportunities to enhance utilization of nonphysician providers.

    To address this barrier, health care organizations can:

      �
           Clearly delineate the duties and skills that are specific to a profession.   Allow
           members of the profession to maintain their professional identity.

      �
           Emphasize each profession’s role as part of an overall health care team,
           enhancing the role of the profession, rather than diminishing it.

      �
           Hold in-service training and problem-solving sessions that involve different
           professions, thus providing a broader viewpoint. Include members of different
           professions both as “students” and as “teachers” at the in-service.
                    .   .
               Res%m&ow Licensure Iaws are designed to protect the public’s health,
    safety, and economic well-being by restricting entry into the occupations to those with
    the proper credentials. These regulato~ ]aws also can inhibit flexibility in how
    nonphysician providers may be utilize~ reduce access to services, and impose higher
    costs.

    To address this barrier, health care organizations can:




                                                 1


—
                                                                                  - .-

We conducted this study in accordance with the Quality Standards for hspection$
issued by the President’s Council on Integrity and Efficiency.

ORGANIZATION        OF THE CASE SIUIXES

We present each of the case studies using the same format. Fobving a background
section on the site, we describe the particular innovation that is being studied. Next,
we discuss our assessment of its impact on quality of care, costs, physicians, sta& and
other parts of the organization. We then discuss limitations and implementation
impediments, and finally, our conclusions about the innovation.




                                           3
practitioners working in collaboration with physicians can enhance the delivery of care
to nursing home residents. St. Joseph’s Hospital of Atlanta is using professional and
nonprofessional hospital staff on two units to deliver more patient care services
directly at the bedside. Mercy Hospital and Medical Center of Chicago is training
nonprofessional workers to perform technical tasks and to work in permanent teams
with registered nurses in a hospital-wide expansion of the hospital’s nursing semice.

We did not intend for these organizations to be representative or even typical of other
health care organizations. We selected them, in fac~ because of the atypical nature of
what they were doing. Our criterion for selection was that each approach was
attempting to enhance the utilization of nonphysician providers by expanding the
range of work and services beyond what was typical in traditional settings. We do not
endorse any particular approac~ and we make no claim that these organizations or
approaches represent “best practices,” either in outcome or in implementation.   Each
of these organizations is at a different phase in implementing its innovation. Each has
encountered barriers and probiems, but each has also adapted and maintained
flexibility to overcome the barriers. At the same time, each organization has
maintained a commitment to the basic goals and objectives of ;he approach.


METHODOLOGY

TO select organizations for case studies, we first identified potential sites based on
interviews with professionals familiar with institutional efforts to reorganize work in
health care settings. In additio~ we gathered information on potential sites horn our
review of policy and management literature in this field. We were particularly
interested in organizations with recent experience in changing how nonphysician
providers are utiliztx$ thus leading us to exclude from consideration organizations
(such as long-established health maintenance organizations) that may have been using
nonphysician providers for several years. In subsequent intemkws with personnel
from different health care organizations, we identified the length of time the initiative
had been operatin~ the availability of data to assess its impa~ continuity of key
persomel, and their willingness to participate in the study. To make our final
selection, we relied on our own qualiwtfie judgments about whether the organization
was doing something innovative and had sufficient experience from which lessons
could be drawn.

We conducted two-day visits to each site. During that time, we intemiewed
administrative pemonnel, sexvi~ delivery staff, and physicians, We also obsemed the
staff and their interactions with other stfi members and patients. In addition, we
reviewed documents horn the sites, including clinical protoco~ staffing and cost data,
patient satisfaction sumeys, training plans, and other background materials. Upon
completing a written draft of the report for each site, we shared it with the chief
executive officer and our key contact horn the site to review the accuracy of our facts.
We did no~ however, change our interpretation of those facts



                                            2
                                                                                       —

                                     EVERCARE
                                  MiImeapol&Minnesota


BACKGROUND

Evercare is a managed care delive~ system that uses geriatric nurse practitioners
(GNPs)    md physicians to provide acute care senkes to residents of several area
nursing homes. A monthly prem~um ikom Medicare covers all acute health care
services for enrolled members--routine and urgent physician care, hospitalization,
laboratory and diagnostic semices. Chronic care services provided by a nursing home,
such as routine nursing care and room and boa.rG are not part of the Evercare
package and are provided under other funding sources, such as Medicaid or private
payment.

As of November 1~       the Evercare membership in the Twin Citiesl totalled about
700 members in 92 nursing hornes--4OO in Minneapolis and 300 in St. Paul. Although
Evercare uses a GNP-physician team approach in both Minneapolis and St. Paul,
there are important differences between the two cities in their delivery models:

       �  In Minneapolis, EverCare employs 6 GNPs directly, with physician sewices
provided through individual physician contracts. In St. Paul, Evercare contracts with
the Ramsey County Medical Center’s Department of Geriatric Medicine, which
employs 8 GNPs and assigns its physicians to provide nursing home care.

       �   In Minneapolis, the GNPs write prescriptions, and they make and sign off on
monitoring visits required under Medicare regulations; in St. Paul, physician signature
is required for those tasks.

Because the GNPs in Evercare-Minneapolis have a wider scope of practice than those
in St. Pa@ this case study focuses primarily on the Minneapolis model.


WHAT IS INNOVATIVE ABOUT EVERCARE?

GNP Phuxi& l%xtxd

EverCare’s protocol with the nursing homes in which its members reside provides the
basis for GNP practice. The protocol is a written agreement signed by the GNP and
collaborating physician that specifies that the GNP “functions collaboratively with the
physician to manage the medical care.” The protocol stipulates that the GNP may
undertake certain tasks “acting without consultation with the physician,” including:



1. Evercare also operates in the Chicago metropolitan area. This report addresses only the
Minneapolis-St. Paul component.


                                              4
—..
                                                                                      ___

     GNPs establish independent practices on a widespread basis, nursing home care could
     become even less appealing to many physicians than it is at presen~

     �   Response of Evexare to Physician Concerns

     The EverCare model addresses many physician concerns, since it is based on the
     premise that the GNP operates as an extension of the physician. with commensurate
     collaboration and coordination. The GNP can also play an important role by
     facilitating communication between physician and facility, since the GNPs are frequent
     visitors to the home.

     One physician who works with EverCare told us that having GNPs available actually
     can attract physicians to nursing home care. According to this physician, the GNP can
     take on much of the burden of providing nursing home care--dealing with families,
     routinely monitoring members with chronic conditions, responding to questions from
     and needs of nursing home staff--leaving physicians to practice w-hat he referred to as
     “the technical aspects of medicine.”

     Impact on N&g      Home Stq&

     F Concerns of Numing Home Staff

     Some staff nurses initially were reluctant to recognize the GNP’s authority. This
     resistance may simply have been the result of confusion over the definition and
     authority of the GNP’s role. On another level, however, staff nurses may have viewed
     the GNP as another barrier between them and the physician--an extra hoop through
     which they would have to jump to get anything done. At one home, the director of
     nursing thought that the Evercare GNPs took too much of the staff nurses’ time,
     always asking them questions, unlike the physicians who come into the home, visit
     patients, and leave quickly.

     Other nursing home personnel were also confused over the GNP role. For example,
     we learned that medical records technicians were accustomed to recording only
     physicians’ orders; thev balked at accepting the nurse practitioner’s signature on a
     medical order or pres&iption. In one home, this confusion carried over to the
     director of nursing, who simply told EverCare not to let GNPs sign prescriptions
     because “medical records dwsn’t want you to.” Only by showing the director of
     nursing a copy of the State law, her State authorization to write prescriptions and the
     collaborative agreement with her partner physician was the GNP able to overcome the
     objections.

     �   Response of Eveware to Nwing Home Staff Concerns

     Many of the initial problems associated with the nursing home staff have been
     overcome as they build a level of trust in the GNPs. Once thev have gained
     experience with them nursing home staff apparently like having the GNPs available.


                                                8


—.
                                                                                       — ..


                                     EVERCARE
                                  Minneapo& Minnesota


BACKGROUND

Evercare is a managed care delivery system that uses geriatric nurse practitioners
(G~s) and physicians to provide acute care services to residents of several area
nursing homes. A monthly premium from Medicare covers all acute health care
services for enrolled members--routine and urgent physician care, hospitalization,
laborato~ and diagnostic services. Chronic care sewices provided by a nursing home,
such as routine nursing care and room and boar~ are not part of the Evercare
package and are provided under other funding sources, such as Medicaid or private
payment.

As of November l%       the Evercare membership in the Twin Citiesl totalled about
700 members in 92 nursing homes--4OO in Minneapolis and 300 in St. Paul. Although
EverCare uses a GNP-physician team approach in both Minneapolis and St. Paul,
there are important differences between the two cities in their delivery models:

        � b Minneapolis, Evercare employs 6 GNPs directly, with physician services
provided through individual physician contracts. In St. Paul, Evercare contracts with
the Ramsey County Mediul Center’s Depa~ent         of Geriatric Medicine, which
employs 8 GNPs and assigns its physicians to provide nursing home care.

       �   In Minneapolis, the GNPs write prescriptions, and they make and sign off on
monitoring visits required under Medicare regulations; in St. Paul, physician signature
is required for those tasks.

Because the GNPs in Evercare--eapolis        have a wider scope of practice than those
in St. Paw this case study focuses primarily on the Minneapolis model.


WHAT IS INNOVA~              ABOUT EVERCARE?



EverCare’s protocol with the nursing homes in which its members reside provides the
basis for GNP practice. The protocol is a written agreement signed by the GNP and
collaborating physician that specfies that the GNP “functions collaboratively with the
physician to manage the medical care.” The protocol stipulates that the GNP may
undertake certain tasks “acting without consultation with the physician,” including:



1. Evercare also operates in the Chicago metropolitan area. This report addresses only the
Minneapolis-St. Paul componen~


                                              4


            _____
                                                                                    ..

with Evercare and nursing home staff suggest that NPs can function in this role
without diminishing the quality of care provided. III fa~ at Evercare it appears that
effective utilization of nurse practitioners in this arrangement can enhance the quality
of health care services.

Effective implementation of a model such as EverCare requires that the GNP practice
in a role that requires independent decisions, frequently without immediate
collaboration with a physician. Consequently, that role needs to be filled by an
individual who wants and is comfortable with that degree of authority and
responsl%iiity. In addition, many physicians may be uncomfortable with or unskilled in
utilizing GNPs in the manner described here. It requires a great deal of trust and
confidence in the GNP’s abilities, as well as physician willingness to let go of many
aspects of day-to-day patient care. As one GNP told ~ “For this model to really
work you have to have a physician or medical group that is willing to work with GNPs
as primary providers, not just have them on staff.”

The Evercare model does not rely solely on the role of an independent nurse
practitioner. The financial incentives to physicians and GNPs are important in making
the arrangement work. By combining financial incentives for physician services-­
prepayment for managing care and favorable rates for visits to patients--with the
availability of the GNPs, an approach such as EverCare’s also holds potential for
helping to ease nursing home physician recruitment problems. This approach may
work particularly well in a nursing home setting, where so much of the emphasis is on
chronic care and on addressing the needs of residents and their families. These tasks
lend themselves closely to the skills and training that many NPs receive--assessment,
psycho-social skills, interaction, and communication.




                                           10
                                                                                            —..

As fellow nurses, they feel more comfortable dealing with GNPs than with physicians
since “they talk our language” and have actually done nursing care.

Nursing home staff have alSO found it easier to contact the GNP than the physician to
have orders change& medications approved, or questions about care answered.
Evercare claims that its GNPs always return nursing home staffk’ phone calls within an
hou~ nursing home staff we met said that most calls are returned within 30 minutes.
The staff nurses feel tiee to call the GNP. In addition, when a physician’s decision is
needed they believe that EverCare physicians respond more quickly to the GNP’s call;
they realize it is important and a situation that the GNP feels requires a physician’s
expertise.

Another benefit to the nursing home staff is informal continuing education. The
medical director at a nursing facility told us that the GNPs help the staff nurses by
increasing their nursing skills, fostering an environment for interchange and improved
expectations.



The State regulatory climate regarding the scope of practice of nurse practitioners
affects the extent to which such a model can be replicated. Obviously, delivering care
through an approach such as this would be easier in those States that permit NPs to
practice in an expanded role, including prescriptive privileges, than in States which
place more restrictions on NP practice.

The start-up costs associated with physician recruitmen~ member enrollment, and
financial reseme requirements mean that financial feasibility may be difficult to
achieve. The founders of Evercare estimate that it took more than three years to
reach a break-even financial point.

In addition, the Evercare model is limited to the nursing home setting. When a
member is hospitalize& the attending physician will be someone who works with
Evercare, but may not be the regular geriatrician that the resident had seen for
primary care semices while in the nursing home. At the same time, the GNP would
have limited authority in the hospital, since her protocol agreement applies to the
nursing home only.

Finally, the lack of a clinic setting in which the GNP can see new patients also is a
limiting factor. While the EverCare physicians’ offices provide a potential location, the
GNP’s office is a car. She must use-space either in a ~ursing home or a hospital
emergency department for the initial physical assessment and case histoq.

CONCLUSIONS

Our study of Evercare highlights the leading role that nurse practitioners can play in
providing care through collaborative arrangements with physicians. Our discussions


                                            9


                              .-
                     ST. JOSEPH’S HOSPITAL
           SERVICE AND CLXNICAL ASSOCIATES PROGRAM
                           Atkm@ Georgia


BACKGROUND

St. Joseph’s is a 346-bed hospital in north Atlant~ specializing in cardiac, oncology,
and orthopedic care. St. Joseph;s payer mix is 35 percent Medicare, 60 percent
private coverage, and 5 percent Medicaid. In 1990, after examining hospital
operations and finding evidence that labor was the primary factor driving up the cost
of health care, the hospital decided tO restructure its inpatient delivery system.

AS part of its work redesign projeq St. Joseph’s created two new job categories-
service associates (SAS) and clinical associates (CAs)--that reconfigure the way patient
care is provided.4 The goals of this project were (1) to promote efficiency by
delivering more services directly at the bedside, and (2) to respond to an emerging
shortage of health care workers by training personnel to provide a broad array of
health care services.

k April 1991, St. Joseph’s added service associates and clinical associates to two units­
-a medical/surgical floor and a critical care unit. The changes in staff duties were
based on two important assumptions. Firs\ it was assumed that many technical tasks
involved in treating patients could be performed under the direction of nurses by
workers who received special trafig+eatig         the nurses to coordinate and monitor
care, do patient assessment, and use their professional judgment. Second, it was
assumed that many patient care tasks could be shared by staff at different leveIs.


WHAT IS INNOVATIVE ABOUT Sl”.JOSEPH% EFFORT?



The hospital designed the position of selvice associate (SA) to relocate services
provided through central hospital staff onto the individual units. This program
recruited workers such as aides, food service workers, and housekeepers, and tied
them to expand their SWS so that they could provide basic patient care. As of
October 1992, 43 service associates were working on two 23-bed units--the Critical
Care Unit (CCU) and the MedicaI-Surgical Unit.




4. St. Joseph’s also created an Administrative Associate position which incorporated the roles
of receptionists, unit department secretaries, medical record clerks, admitting clerks, and
utilization reviewers, as well as some patient mmfort and transport duties. In this repo~ we
fwus only on the CA and SA positions


                                              11
—
                                                                                     ..

                            MERCY HOSPITAL
                      CLXNICAL PARTNERS PROGRAM
                               Chicago,Illinois

BACKGROUND

Mercy Hospital and Medical Center is a 505-bed teaching hospital, located on the
South side of Chicago. Merq?s payor mix is 40 percent Medicare, 37 percent private
coverage, and 23 percent Medicaid.

In 1987, Mercy faced a severe nursing shortage, compounded by declining revenues.
In a review of the hospital’s structures and operations, management found that staff in
central departments--laboratory,   housekeeping, and food setices, for example-­
experienced a significant amount of down-time. In the course of its review, the
management team also found that patients saw a large number of different hospital
staff during their stays. In response, hospital management decided to undertake
several projects in an attempt to increase efficiency and improve the quality of patient
care management. This case study focuses on one of these initiative% the C1inical
Partners Program (CPP).

Mercy implemented its Clinical Partners Program in 1989. As of November 19% 136
clinical partners worked in units throughout the hospital.


WHAT IS INNOVATIVE          ABOUT CLINICAL PARTNERS?

lWme-Ctial    l%u7ner Tixzms

A clinical partner is a person trained to provide a variety of nursing assistant and
technical tasks essential to basic patient &re, working in a team wi”ti a registered
nurse. Clinical partners take a 6-week in-house training program tau@ by nursing
and central department staf& They learn how to draw blood; perform basic
respiratory therap~ retiorce physi~ and occupational therapies; take an EKG; and
provide semices ordinarily performed by nursing assistants. At the end of the training
program, clinical partners take a series of exams to ensure their competency. AImost
ninety percent of clinical partners have been recruited from central hospital
departments such as lab, environment       services/housekeeping, EKG, and food
sewices.

The CPP relies on a fixed-team stmcture, with one registered staff nurse working
exclusively with one clinical partner. Nurses interview and hire their clinical partners
after they complete the training program. Many of the teams have been working
together since the program’s inception. AS part of the CPP, nurses who supemise a
clinical partner must take a specia] workshop sponsored by the hospital to enhance
their management skills and develop their delegation principles. Nurses also must be
proficient in all of the technical skills that their clinical partners@ be performing.


                                           19


                            —.
educational and professional philosophies. There are overlaps in much of the
technical education received by nurses, pharmacists, and respiratory therapists. Major
differences emerge, however, in underlying approaches and assumptions that they
bring to their professions. Nurses, for example, tend to focus on managing the entire
spectrum of care, where= respiratory therapists perform primarily mechanical tasks
dealing with limited parts of the body system. These educational underpinnings are
evident within the hospiti where the RTs and pharmacists sought a management
structure in which they were supetied     by those in their own professions. They also
are evident in broader areas of the health care system, such as licensure, scope of
practice, and supemisory responsibilities. Clearly, these concerns are major factors
that must be considered in any effort to change how the work of delivering health care
is performed.

St. Joseph’s experience demonstrates the importance of flexibility in changing the way
in which a hospital utilizes personnel. Despite some major changes in its initial plans,
the hospital maintains a strong commitment to the underlying principles behind its
work redesign effort: Providing more patient care directly on the unit by using
workers who are trained to perform a broader range of services.




                                           18

                .—
                                                                                    — ..

 proposed a wstem modification and further education for the ciinical partners on this
 procedure; ~ response, the lab and the nursing department are developing a new
 education program to remedy the problem.

. Other advantages arise horn the additional time that clinical partners spend with
  patients and their families. The clinical partners are ffom diverse backgrounds and
  may be more attuned to patients’ differing cultural needs and concerns. Nurses told
  us that on several occasions the clinical partners have recognized dysfunctional family
  behavior and have alerted them to potential problems that the patient might
  encounter upon discharge.



Hospital management is still in the process of evaluating the impact of the Clinical
Partners Program on hospital finances. Those we intenriewed were in substantial
agreement that it has been expensive, particularly for trainin~ however, they were
unable to provide us with the actual costs. Managers acknowledge that they probably
underestimated the cost of training when they began this program. tie senior official
reporte~ however, that the program has added significant value to patient care,
despite its cost.

With the implementation of the Clinical Partners Pro-        Mercy was able to reduce
the number of vacant RN positions. Since the program was adopted they have added
more l?TEs to their payro~ but these have been in non+mrsing positions. By
transforming the unfilled RN positions into Clinical Partner position~ the hospital
estimates that it has hired 35 fewer nurses.

One physician we spoke with said that the hospital has been struggling to figure out
how to measure the cost-savings of the CPP; he remarked on the difficulty of trying to
prove a negative. He nonetheless thinks that the change has had positive financial
and clinical benefits. “In the pas~ nobody was measuring the amount of time spent
waiting for tests or the number of times a nurse had to make telephone calls to
arrange for care. Now evelyone realizes that they have more time for the patients,
but it is very difficult to prove.”

Iinpct on Szlf




Since CPP began over three years ago, the nurse vacancy rate has decreased horn
almost 12 percent to less than three percent. Now the hospital reports a short waiting
list of nurses interested in working at Mercy. All budgeted positions were filled by
July 1992-i.ncludhg traditionauy d~cult-to-fill positions in the intensive care unit.
Hospital management believes that the CPP has influenced this trend




                                            21
                                                                                             —..

l%w&ii&T&d~                   “
                             Dmdyonthethit

In most hospitals, when staff on a patient unit need sexvices and tests--EKGs, blood
work x-rays, lab tests-they must wait for centralized departments to provide them and
communicate the resuits. By training clinical partners to perform these semices
directly on the unit, Mercy expects to decrease waiting times for both patients and
providers. By bringing other services, such as physical and occupational therapy, to
the patient on the unit rather than sending the patient to another part of the facility
for those sexvices, the hospital hopes to “provide care more efficiently and reduce the
number of persomel that patients see during a hospital stay.




QudiYyof Clue

From our discussion with staff, it appears that the CPP has improved the timely
delivery of sewices and coordination of patient care. Prior to fiplementing     this
progrm     unit staff requested that 25 percent of tests be done on a “stat” (immediate)
basis, in order to speed up central processing. Now, because many of the tests are
done directly on the uni~ the proportion of stat requests has fallen to 12 percent. In
additio~ by drawing blood on the unit the CPs have helped the lab by expediting
specimen delivery, reducing the morning flood of lab orders, and shortening
turnaround time.

Mercy also has made some changes in its quality assurance (QA) processes since the
implementation of the CPP. The QA department conducts monthly assessments that
examine discharge planning, patient falls, medication and lab errors, and infection
rates. However, now that more services are decentralized, the hospital has designated
a QA person on each unit who reports to the hospital’s quality assurance office.
Hospital management believes that bringing together unit and central staff through
QA has opened up a valuable dialogue, contributing to better patient care and easing
the transition. to the CPP. For exwp]e, they have noted a decrease in the number of
venipunctures per patient, as well as a deche in the number of duplicate orders for
tests.

Staff from central departments expressed concern to us about the level of training that
clinical partners receive. They believe that the hospital has cut comers by providing
only six weeks of intensive training instead of the eight to ten weeks initially proposed.

concerns about the competency of clinical partners and the effect on quality were
addressed through the hospital’s use of cross-functional groups as a problem-solving
tool. These are ad hoc committees consisting of persomel from a variety of
disciplines convened to address specfic systems and to create new ones. One such
group w formed at the request of the lab to examine the problem of an increase in
the number of incorrect specimen collections. After assessing the proble~ the group


                                            20


     -.
                                                                                -.
implementing this initiative. Those physicians we interviewed have positive views
about this innovation, but they are only a small part of the medical stafE

Third, it is clear that an effon such as this is expensive and difficult to quanti~.
Training staff to undertake new roles and new duties, separate horn existing training
programs, carries a substantial price tag.




                                          2s



   —..
                                                                                     ..

proposed a svstem modification and further education far the clinical partners on this
procedure; ~ response, the lab and the nursing department are developing a new
education program to remedy the problem.

Other advantages arise horn the additional time that clinical partners spend with
patients and their families. The clinical partners are horn diverse backgrounds and
may be more attuned to patients’ differing cultural needs and concerns. Nurses told
us that on several occasions the clinical partners have recognized dysfunctional family
behavior and have alerted them to potential problems that the patient might
encounter upon discharge.



Hospital management is still in the process of evaluating the impact of the Clinical
Partners Program on hospital finances. Those we inte&ewed were in substantial
agreement that it has been expensive, particularly for training, however, they were
unable to provide us with the actual costs. Managers acknowledge that they probably
underestimated the cost of training when they began this program. tie senior official
reporte~ however, that the program has added significant value to patient care,
despite its cost.

With the ixnpiementation of the meal      Partners Pro-      Mercy was able to reduce
the number of vacant RN positions. Since the program was adopted they have added
more FIEs to their payro~ but these have been in non-nursing positions. By
transforming the unfilled RN positions into Clinical Partner positions the hospital
estimates that it has hired 35 fewer nurses.

One physician we spoke with said that the hospital has been struggling to figure out
how to measure the cost-savings of the CPP; he remarked on the difficulty of t@ng to
prove a negative. He nonetheless thinks that the change has had positive fiancial
and clinical benefits. “III the past nobody was measuring the amount of time spent
waiting for tests or the number of times a nurse had to make telephone calls to
arrange for care. Now eve~one realizes that they have more time for the patients,
but it is very difficult to prove.”




Since CPP began over three years ago, the nurse vacanq rate has decreased from
almost 12 percent to less than three percent. Now the hospital reports a short waiting
list of nurses interested in working at Mercy. All budgeted positions were filled by
July 1992-includtig traditionatiy difficult-to-fill positions in the intensive care unit.
Hospital management believes that the CPP has influenced this trend.




                                           21
                                                                                             ..

Eiiucational Isolation

  �
       Train staff in areas not covered in basic health professions curncula--e.g.,
       management, supetision, delegation.

  e    Establish career ladders for nonprofessional staff, with clear expectations,
       requirements, and goals. Involve different professions in providing training ~~r
       entry level staff.

  �
       Use in-semice education to expand knowledge across professions.

Physician Rewktance

  �
       Involve physicians in development of new approaches.         This will help other
       physicians buy into the organizational change.

  �
       Identify, understand,   and respond to major concerns of physicians.

  �
       Make explicit that nonphysician providers, such as NPs, PAs, and CNMS, must
       meet the same quality assurance standards and processes as physicians,
       including service on medical standards committee.

  �
       Establish clear protocols to make explicit the lines of approved delegation.

Imtihdond   Inem”a

  �
       Openly demonstrate      commitment   by senior management.

  �
       Designate a full time staff perscm to be responsible for implementation.       This
       person should report directly to the organization’s senior management.

  �
       Spell out basic objectives of reform.    Make implications for patient care clear.

  �
       hwoive employees early in the change process.       Solicit and respond to their
       concerns.




                                               27


                         —        ——
